No. 20-569

In the
Supreme Court of the United States
+

ELIM ROMANIAN PENTECOSTAL CHURCH, ETAL.,
Petitioners,
v.

JAY ROBERT PRITZKER, IN HIS OFFICIAL CAPACITY AS
GOVERNOR OF ILLINOIS,
Respondent.

CERTIFICATE OF WORD COUNT

As required by Supreme Court Rule 33.1(h), I declare that the Brief of Amicus
Curiae American Constitutional Rights Union In Support Of Petitioners in case No.

20-569 contains 1,931 words, excluding parts of the document that are exempted by
Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on the 25th day of November 2020.

  

JOHN J. PARK, JR.
616-B GREEN STREET
GAINESVILLE, GA 30501
470-892-6444
